f
No.

it

51 9 9
FILED
JUL 0 8 2021
OFFICE OF THE CLERK
SUPREME COURT II R

IN THE
SUPREME COURT OF THE UNITED STATES

VINCENT JOHNSON -Plaintiff

VS.

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT - Respondent
:

ON PETITION FOR WRIT OF CERTIORARI. TO
THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI

Vincent Johnson 688-089
Chillicothe Correction
P.O. Box 5500 45601
Chillicothe Ohio

QUESTION OF FEDERAL LAW FOR REVIEW

What is the correct vehicle and avenue inwhich a petitioner may challange
a COA violation by a circuit court pursuant to Buck v. Davis 13? S. Ct.
759 once Certiorari has been denied by the U.S. Supreme court.

RELIEF SOUGHT

To be immediately released from prision.

1
i

I

l

LIST OF THE PARTIES
all parties in the caption of the case on the cover page.
TABLE OF CONTENTS
QUESTION PRESENTED & -RELIEF SOUGHT

i

TABLE OF CONTENTS................................

ii> iii

TABLE OF AUTHORTIES............................

Xv

OPINIONS BELOW

v

JURISDICTION

v

CONSTITUTION & STATUTORY PROVISION INVOLVED

vi

STATUES

vii

STATEMENT OF THE CASE

1

STATEMENT OF THE FACTS

3

REASON WHY THIS SUPREME COURT SHOULD TAKE JURISDICTION

4

CONCLUSION

17
18

CERTIFICATE OF SERVICE
INDEX TO APPENDICES

Sixth Cir order denying Enbanc hearing case No. 21-3213 filed may, 18,
2021.
Sixth Cir. order denying COA case No. 21-3213 filed April,5,2021.
U.S. Dist. court opinion and order denying 60(d) motion case no.
2:15-CV-00971, filed Feb. 3, 2021.
Letter

from case Manager for the Sixth Cir. stating, movant 60(d)

motion will not be filed in the Sixth Cir. date Sept. 23,2020.
Sixth Cir. order denying 2244(b) motion case no. 20-3036 filed
May, 20, 2020.
U.S. Supreme Court denying Mandamus case No. 19-5257 filed Oct, 7, 2019.
U.S. Supreme Court denying Certiorari case No. 18-7688 filed April
1, 2019.
CONTINUES :

Sixth Cir. denying Enbanc hearing case No. 18-3492 filed Sept. 5.
2018.
Sixth Cir order denying Mandamus case no. 18-3492 filed July,16,
2018.
Letter from Chief dupty clerk for the Sixth Cir. stating why movant's
60(b)(6) motion will not be filed by the clerk date Jan. 17, 2018.
Letter from the case manager for the Sixth Cir. stating movant's
60(b)(6) motion will not be filed date Jan. 2,2018.
U.S. Dist. court's opinion and order denying 60(b)(6) motion case
No. 2:15-CV-00971, filed Agust 17,2017.
U.S. Supreme Court denying certiorari case No. 17-6045 filed 27,2017.
Sixth Cir. order denying Enbanc hearing case No. 16-4076 filed
June 28, 2017.
Sixth Cir order denying COA case No. 16-4076 filed April 27, 2017.
U.S. Dist.

court's opinion and order denying COA Case No. 2:15-CV-00971

filed Sept 26, 2016.
U.S. Dist. court's Report and recomendation case No. 2:15-CV-00971
filed Sept. 9, 2017.
Trial transcripts > pgs. 292,330,331,373,444,445,446.

iii

TABLE OF AUTHORITIES

Cases

Abur Rahman 537 U.S. at 97
Sr

Brown v. Allen 344 U.S. 443
Buck

.4,5^7,8.9,11

v. Davis 137 S. Ct. 759

16;

Herbert v. Louisoanna 272 U.S. 316, 317

12

In Re Winship 397 U.S. 358........................
Manson v. Brathwate 432 U.S. 98..............

4,1(4,15"

McDaniel v. Brown 558 U.S. 120

14:

Miller El Cockrell 537 U.S. 322

4,'9

Murray v. Carrier 477 U.S. 478..............

13

Napue v. Illinois 360 U.S. 264..............

1.6

Pannetti v. Quarterman 127 S. Ct. 2858

15-

Perry v. Newhampshire 132 S. Ct. 716..

14,16

Sims v. United State 244 F. 3d. 509...

4,7,8

Slack v. McDaniel 528 U.S. 473..............

5,10;,]H

United State Ex Rel Kemp v. Pate 359 F. 2d. 749

>5

CONSTITUTIONAL PROVISION
Fourteenth Amendment, United States Constitution
STATUES
Federal R. of Civil Procedure 60(b),(d)

5,6,7 ,'8

28 U.S.C. 2253 (c)(2)..................................

6,.8,9" ,

12,14

2907.2
iv

JLN—THE
SUPREME COURT OF THE UNITED STATES
)

PETITION FOR WRIT OF CERTIORARI
I

OPINIONS BELOW
Order by the Sixth Circuit denying rehearing en banc at Appendix A
Order denying COA by the Sixth Circuit at Appendix B
Opinion and order by the Southern District of Ohio Eastern Division
denying independent action at Appendix C

JURISDICTION

The U.S. Southern District Court Eastern Division rendered it's
decision on movant’s 60(d) on Febuary 3, 2021. Vincent Johnson filed
a timely request for COA to the Sixth Circuit which was denied on
April 5, 2021. A fimely,petition for rehearing en banc was submitted
it was denied on May 18, 2021. The jurisdiction of this Court is
invoked under 28 U.S.C. 1254(1).

v

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

UNITED STATES CONSTITUTIONAL PROVISIONS
BILL OF RIGHTS
United states Constitution, Bill of Right

Amendment XIV
Section 1. All person born or naturalized in the United States and
subject to the jurisdiction thereto, are citizens of the United States
and of the wherein they reside. No state shall make or enforce any
law which shall abridge the privilege or immunities of citizens of
the United States; nor shall any State deprive any person of life,
liberty, or property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of laws.

vi

STATUES

Federal R. of Civil Procedure 60 (b) & (d)
Rule 60 relief from

a ’judgement order on motion and just terms the

court may relieve a party or it’s legal representive from a finale
judgement or order or proceeding.
(d) other powers to grant relief. This rule does not limit a court
(1) entertain an independent action to relieve a party from a judgement
or order or proceeding.
28 U.S.C. 2253(c)(2)
In a habeas proceeding or a proceeding under 2255 before a district judge
the finale order shall be subject to review on appeal by the court po
of appeals for the circuit in which the proceeding is held, (c)(2) a
certificate of appealability may issue under paragraph (1) only if
applicant has made a substantial showing of the denial of a constitutional
right.

2907.02 No person shallengage in sexual conduct with another when
the offender purposely compels the other person to submit by force or
threat of force.

vii

STATEMENT OF THE CASE

This case is being persued to appeal the Sixth circuit's April,5,
2021 order denying petitioner's request for COA. Petitioner believes
during his initial habeas proceedings both the Dist. and the Sixth Cir.
court of appeals improperly denied his request for COA. Because petitioner
had persued his appeal to this U.S. Supreme court. As normal procedures
requires that the merits'of a 60(b) be first presented to the Dist. court.
To resolve the issue of the COA violation petitioner presented a 60(b) to
the Dist. court. The 60(b) was submitted before a decision was made on
petitioner's writ of certiorari so that the motion

would filed within

the one year time fram of the Dist. court's intial denial of petitioner's
request forf COA. The 60(b) motion was denied. The Dist. court ruled, it
lacked jurisdiction to make a determination on a COA violation once the
Sixth cir. has denied a petitioner's application for COA. In response to
this decision a 60(b) was presented to the Sixth Cir. court of appeals,
arguing a COA violation pursuant to Buck v Davis 137 S. Ct. 759. The
clerk for the Sixth Cir. refused to file the motion for the reason of the
case being closed. Because petitioner had no other path or vehicle to
resolve this issue. A independent action was submitted to the Dist. court
arguing a COA violation by the Sixth Cir. pursuant to Buck v Davis. The
motion was asking the Dist. court to issue a Coa so that the merits of
the violation could be presented to the Appellate vcourt. The 60(d) was
denied. The Dist. court improperly construed the 60(d) as a motion for
recosideration of it's previous denial of movant's 60(b).
-1-

The court again denied COA. A request for COA was submitted to the
Sixth Cir. The request was denied. The court ruled the application for .. .
COA was not properly before the court. In light of this ruling petitioner
now seeks this court's guidence. Asking, what is the propper path inwhich
a petitioner must take to persue a COA violation by a Circuit court
once Certiorari has been denied.

-2-

STATEMENT OF THE FACTS

On Nov, 27, 2017 this United States Supreme Court denied Mr. Johnson's
petition for a Writ of Certiorari of his intial habeas proceedings
case No, 17-6045 see Appx,

M

. To persue a C0A violation made by the

Dist. court movant submitted a 60(b) to the Dist. court case No. 16-4076.
The motion was denied Agust 17*, 2017, see Appx. L . Petitioner attempted
to submitte a 60(b) to the Sixth Cir. The clerk for the Sixth Cir.
refused to file the motion for the reason of the case being closed, see
Appxs. j}k . A writ of Mandamus was submitted to the Sixth Cir. to
compell the clerk to file movant's 60(b) motion. It was denied July, 16,
2018, case No. 18-3492 see, Appx.

I . A Enbanc was filed and denied Sept.

5, 2018 see Appx. H . A timely Writ of Certiorari was submitted to this
Supreme Court case No. 18-7688 it was denied April 1, 2019, see Appx G

.

A Mandamus' was then submitted to this Supreme Court case No. 19-5257
and was denied Oct. 7, 2019, see Appx F

. A 2244 petition was then

presented to the Sixth Cir case No. 20-3036 this was denied May 20, 2020,
see Appx E

.

Mr. Johnson then attempted to submitti a 6(d) to the

Sixth Cir. it was returned unfiled, see , Appx D . A 60(d) was submitted
to the Dist. court case No.2:15-CV-00971 it was denied Feb. 3, 2021
see, Appx. C

. An aplication for COA was submitted to the Sixth Cir.

and denied April,' 5 , 2021 see Appx. B . A Enbanc was presented in response
and denied May, 18, 2021, see Appx.

A

-3-

Reasons this court should accept jurisdiction.

INTRODUCTION
This case deals with an issue of jurisdiction. It challenges the
Sixth circuit decision in Sims v. United States 244 F. 3d. 509. Where the
court ruled that an oder ruling on a certificate of appealability is not
appealable. The facts and circumstances of this case raises a question of
exceptional importance that ask, what is the correct vechicle and avenue
inwhich a petitioner may challange a COA violation by a Circuit Court
pursuant to Buck v. Davis 137 S. Ct. 759 once certiorari has been denied
by the U^S. Supreme Court. To leave this question unresolved would lame
this court's opinions in Miller El v. Cockrell 537 U.S. 322 and Buck v.
Davis 137 S. Ct. 759, as there; is no path inwich to address a COA
violation by an appeals court once certiorari has been denied. It is for
these reasons petitioner now seeks this court's guidence as the issues
presented have allowed the conviction of an innocent man to go unchallanged.
a. Question of exceptional importance.
-In petitioner's orginal habeas proceedings the District court improperly
barred a supplement argument to claim one and denied petitioner's request
for COA. In denying the supplement argument, the Magistrate determined the
claim presented in state appellate proceedings,argued generally that the
trial court denied appellant equal protection and due process and was not
supported with federal law. That would have alerted the State Apellate court
to the nature of the claim that was being presented under Manson v. Brathwate
432 U.S. 98(1977). Therefore the supplement to claim one which used Brathwate
as it's legal basses to show the state appellate court's decision was
contrary to federal law, could not be presented in federal proceedings.
-4-

Based on the District court's reason for the

procedural bar. Petitioner

presented a clear shoMing_that—iurlst-of—reason-wou-ld—find—the—procedural----bar debatable, see Slack v. McDaniel 528 U.S. 473. COA should have
been granted, as fair presentation does not require a habeas petitioner
to alert the state Appellate court to the precedent being presented in
federal proceedings, see Brown v. Allen

344 U.S. 443 and United States

Ex Rel Kemp v. Pate 359 F. 2d 749. In response to the error in the Dist.
court's decision. A request for COA was submitted to the Sixth Cir. court
of Appeals, which was denied. The Sixth Circuit in it's April 27,2017
order denying petitioner's request for COA comitted an error in the COA
process pursuant to Buck v. Davis 137 S. Ct. 759 The Sixth circuit during
the COA process, rather than treating the supplement argument as an
addtion

to claim one. Viewed the argument as a seperate claim. Thereby

going into the merits of the procedural bar without excepting jurisdiction.
This issue along with others were presented in a writ of Certiorari to
this honorable court. The writ was denied on Nov. 27,2017. To futher
pursue the error comitted in petitioner's COA process. A 60(B) was
presented to the Dist. court. As normal procedure requires that fchemerits of a 60(b) be adressed in the first instance by the Dist. Court,
see, Abur Rahman 537 U.S. at 97. To be within the one year time fram
of the Dist. court's decision. The motion was submitted while waiting
to see if certiorari would be granted. The1motion was denied Agust, 17,
2017. The district court ruled that it did not have jurisdiction to
adress an issue concerning a COA violation once the Circuit court
•has made a ruling on

the matter of weather COA should be granted.

-5-

In light of this ruling . Movant attempted to submit a 60(b) to the
Sixth Circuit Court of Appeals, asking the court to set aside it's April.27
2017 order denying petitioner’s requestfor COA. Arguirig a CQA violation
pursuant to Buck. The clerk for the Sixth Cir. refused‘to file the motion,
stating the case was closed. As,a result, an independent action was
submitted to the Dist. court for the reason that movant had no other avenue
or vehicle inwhich to present the Buck> violation comitted by the appeals
court. Though the Dist. court lacked jurisdiction to adress the merits
of the COA violation . It did however have the jurisdiction to grant a
COA under 2253(c)(2). The Dist. cour't improperly, jconsidered the independent
action as a motion for reconcideration of it’s Agust, 17 2017 order.
The court again ruled that it lacked jurisdiction to consider the COA
violation. The District court went on to deny movant's request for COA
of his independent action,ruling that reasonable jurist would not
debate the court’s decision. A request for COA was then filed with the
Sixth Cir. The Sixth Cir. in it's April 5, 2021 order denying petitioner's
request for COA ruled. In substance petitioner's Dec. 22

2020 motion

sought a certificate of appealability, and a order ruling on a COA
is not appealable. The 60(d) presented was not attacking the district
court's Agust,17 order and was not in subtance simply a motion for COA.
The facts and circumstances which brought on the independent action raised
a question of exceptional importance,whiched asked ,what is the correct
vehicle and avenue inwhich a petitioner may challange a COA violation
pursuant to Buck v. Davis 137 S.Ct. 759 once certiorari has been denied by
the U.S. Supreme court. This question has been unresolved by both the
District and the Federal Apellate court. The facts and circumstances that
were raised have been conveniently overlooked.
-6-

They bring to light a diffrent set of circumstances which challenges the
Sixth circuit court's decision not only in this case but also the court's
decision in Sims v. United States 244 F. 3d 509. Where the court determined
that a order ruling on a certificate of appealability should be treated the
same as a order ruling on a certificate of probable cause and therefore
not appealable. Both court's decision in this case to deny COA have
compremised judical integrity and fairness in petitioner's persuit of
justice. Through out petitioner's original Habeas proceedings and in
this case. The courts have demonstrated, a patteren of manipulation to
the application of the law. This has created circumstances which have
presented an unfair disadvantage to the petitioner. The ruling by
both courts in this case have made it impossible for a petitioner to
know which path or vehicle one must take to attain relief from a COA
violation by

an Appeals court once certorari has been denied.

b. The circumstances in this case challanges the Sixth Cir. ruling
in Sira6 v. United States 244 F. 3d 509.

The Sixth Cir. ruled that petitioner's request for COA of his independent
action was not properly before the court. This decision was improperly
predicated in part on the position that petitioner's 60(d) was challanging
the district court's Agust 17, 2017 decision. The 60(d) submitted in this
case was not asking for reconsideration of the Dist. court's ruling,
rather it was adressing an error comitted in the COA process by the Sixth
circuit pursuant to Buck v. Davis 137 S. Ct. 759, and asking for the
setting aside of the court's April 27, 201*7 order. The issues of this case
have created circumstances which challanges the Sixth circuit

-7-

ruling that an order ruling on a COA should be treated the same as
an order ruling on a certificate of probable cause and therefore__not.
appealable see, Sims v. United States 244 F. 3d 509. A violation of
Buck v. Davis can only be made by a Court of Appeals, as the court is
required to limit it's examination at the COA stage to a threshold inquiry
into the underlying merits of a
Once a circuit

Habeas applicant's request for COA.

court has denied a-petitioner's request, the ease is closed.

If the U.S. Supreme Court has denied Certiorari. The only avenue to adress
a COA violation is by a 60(b). A COA violation by a court of appeals
presents circumstances which raises question

to whether an order ruling

on a certificate of appealability should be treated the same as that of a
order ruling on a certificate probable cause. In this case the Sixth
Circuit in petitioner's orginal habeas proceedings reached the merits
of a perceived procedural bar without excepting jurisdiction. To adress
this issue. Petitioner attempted to submitt a 60(d). The 60(d) could
not be filed with the Fedral Appeals court. As the clerk refused to
file the independent action for the reason of the case being closed.
The action had to be filed with the District court . Where the court
did not have the authority to over rule the circuit court's decision.
The District

court did however have the jurisdiction under 28 U.S.C.

2253 (c)(2) to make a determination on whether a substantial showing of a
denial of a constitutional right was presented. Petitioner argues these
circumstances gave the Sixth Cir. juridiction to review the order ruling
on COA

by the District court. As the COA violation was made by

the

Appeals court. Jurisprudence, deferance and judical integrity would
demand that the appeals court have jurisdiction to remedy the error.

-8-

c. Argument for the reopening of the Sixth Cir. April, 27, 2017
order denying petitioner's request for COA.

Petitioner states, that the Sixth Cir. court misapplied the standard
governing the issuance of a certificate of appealability, in view of
Buck v. Davis 137 S. Ct. at 759. In Davis the Supreme court held,
until a petitioner secures a COA a circuit court should not decide the
merits on a application for a certificate of appealability see, Miller
El v, Cockwell 537 U.S. 322,336. A COA may be issued only if petitioner
makes a subtanial showing of the denial of a constituutional right
28 U.S.C. 2253(c)(2). A petitioner satifies this standard by demostrating
that jurist of reason could disagree with the Dist. court’s resolution
of his constitutional claim or that jurist could conlud the issue
presented are adequate to deserve encouragement to proceed futher.
Miller El v. Cockwell 537 U.S. 322, 327( 2003). In the case sub judice
the court soley relied on the Dist. coart's findings of a procedural
bar and diregaurded petitioner's supplement to ground one in it's
initial analysis and essentially decided this case on the merits.
To propperly determin whether or not COA should have been granted.
The court should have included the supplement argument to ground one
in it's examination and ask only if the petitioner has shown the Dist.
court's resolution debatable.

Miller 537 U.S. at 327, 348. When

reviewing the Circuit court's opinion there is nothing which would
give one reason to conclud that the court considered the supplement
argument in it's inquiry on whether there was a substantial showing
of the denial of a constitutional right.

-9-

The threshold inquiry the court made to ground one was, whether the
claim was cognizable for habeas review. See third pagraph_of_pg_two_____
Appdix.

0 . This should not be the primary question at the COA stage.

The Sixth Gir. misconstrude the supplement arugment as a seperate
argument, when in fact it is a addition to claim one and therefore
should have been examined as one argument. When reviewing the court's
opinion of the supplement argument, the court ruled," reasonable
jurist could not disagree with the District court's conclusion that
petitioner felled to exhaust this claim." See peregraph 2 pg. 3Appdx. 0.
When the District court has denied a 2254 petition

on procedural

grounds a petitioner must show" that jurist of reason would find it
debatable whether the petition states a valid claim of the denial of
a constitutional right that jurist of reason would find it debatable
whether the Dist. court was correct in it's procedural rulling."
Slack v. McDaniel 528 U.S. 473, 484 (2000). In this case the court's
inquiry into the procedural bar is not asking whether or not petitioner
felled to make a showing the procedural bar is debatable among jurist
of reason, rather the court is implying petitioner has felled to
show the procedural bar is incorrect. Petitioner argues that this
decision was reached by the court making a determination into the
merits of the procedural default. This is evident by the court\s_opinion
in the

last sentence on pg. 3, as the court agreed with the District

court's resalutioin it stated,"Because Johnson felled to support his
argument with any Federal cases or state cases relying on federal
law, did not allege facts well within the mainstream of constitutional
law and has not cited any circumstances excusing his procedural default,
reasonable jurist could not disagree with the district court's procedural

ruling."
. ,-10-

The COA inquiry is not coetensive with a merit analysis, see Buck v.
Davis 137 S. Ct. 759. Whendealing with a procedural bar at the COA
stage, the only question is wether the applicant has shown" that jurist
of reason would find the district court's procedural bar debatable".
Slack v. McDaniel 528 U.S. 473, 484 (2000). Whether petitioner felled
to support his argument with any federal cases or state cases relying
on federal law, or cite any circumstances excusing the procedural
default are ultimate merit determination of the procedural bar the
court should not reach. At the COA stage a petitioner is not required
to present circumstances excusing a perceived default. This places
a heavy burden on petitioner at the COA stage

see Miller El 537 U.S.

at 336,337. When a court of appeals sidesteps the COA process by first
deciding the merits of an appeal and then justifying it's denial
of COA based on the adjudication of the actual merits it is in essence
deciding an appeal without jurisdiction, see Buck v. Davis 137 S.Ct. 759.
The manner inwhich the court analysed and then denied petitioner's request
for COA created a situation which cannot in equity be ignored. The
Sixth Cir. interpertation of a COA inquiry required the petitioner
to make a ultimate showing of merit rather than a preliminary showing
of the claim being debatable. A review of the facts will show extraordinary
circumstances in the court's analysis to deny petitioner's request.
First the court seperated the U. S. Supreme Court precedent presented
in the suplementary argument to claim one from claim one. Second the
threshold inquiry the court made to claim one was wether it was cognizable
for habeas review. Third the court procedurally bared the suplementary
argument based on it's determination of the merits of the procedural default.

-11-

■

The decision by the Sixth Cir. to deny petitioner's request has
allowed a fundamently unfair trial which resulted in the.conviction
of an inocent man to stand.

d* Miscarriage of justice issue.

This miscarriage of justice claim relies on the same set of facts
presented in petitioner's initial argument and supplement argument to
claim one. The supplement was subsaquently bared from review in the
orginal habeas proceedings. The supplement argument that was presented
argued petitioner's guilt was established by unreliable and suggestive
evidence which did not prove guilt and denied petitioner a fundamentaly
fair trial •

!

. i

A person when first charged tyith a crime is intittle to a persumption
of innocence, see In Winship 397 , U*S. 358. In Winship the court held
that the due process clause of the fourteenth admendement protects a
defendant in a criminal case

against conviction " except upon proof

beyond a reasonable doubt of every fact necesary to constitute the
crime with which one is charged", 397 U.S. at 364. Petitioner argues durring
trial the state felled to establish the element of sexual conduct as
required by R.C. 2907.02, used false evidence to give the appearance
of veracity to it's key witness testimony and to establish guilt in
violation of his fourteenth admendment right to due process.

"M2-

In Murray v. Carrier (1986) 477 U.S. 478, the Supreme court held
inorder to invoke miscarriagE of justice a_habeas_pe.ti.tioner—must

------------

show that a constitutional violation has probably resulted in a conviction
of one who is actualy innocent. The standard requires a petitioner to
show that it is more likely than not no reasonable "jurior would have
convicted him". The "reasonable" in that formulation is not without
meaning. It must be presumed that such a jurior would conscientiosly
obey the instruction of the trial court requiring proof beyond a reasonable
doubt. The meaning of actual innocence does not merly require a showing
that reasonable doubt exist in light of the new evidence, but rather that
no reasonable jurior would have found the defendant guilty. The habeas
court must make it's determination concerning petitioner's innocence
in light of all the evidence including that alleged to have been illegally
admitted (but with due regaurd to any unreliability of it).
In the case being reviewed, during the trial proceedings the state's
key witness testified that she was sexually assulted by the defendant.
One could argue that this testimony should be viewed in light most
favorable to the proscution as there is on way for the court to judge
the pulse of the witness's testimony, however this standard does not take
into account the states knowing use of false evidence which directly
affected the credibility of the witness's testimony, thereby deminshingj
it's reliability. The defendant denied there being any sexual conduct
except that inwhich he and the state's witness both agreed: i upon.
Which was a consenual act accuring within 72 hours of the time inwhich
D.N.A. evidence can be recovered, seeT.T. pg. 373 Lines 3-20 and >
pg. 329 lines 11-16.

-13-

To impeach the defendant and to establish the element of sexual conduct
.as_rejqjuijied—by_R.-C.—2907.02, the state presented D.N.A. evidence in the
form of defendant's semen. The state in it's decision to use the

semen

as evidence never presented a legitmate inference to which the D.N.A.
could assit the jury in the fact finding process, rather the state simply
used the D.N.A. in a deceptive manner to persuade and give the illusion of
veracity to the victim's testimony see: T.T. pg. 330-331 lines 9-1, pg.
445 lines 12-16 and pg. 446 lines 15-19. To insure the fairness of the
trial proceedings the semen should not have been presented to the jury
as evidence as it was unfairly

suggestive and unreliable, see:

Manson v. Bratwaite 432 U.S. 98 (1977); also Perry v. New Hampshire
(132 S.Ct. 716). The semen was unreliable as proof to the sexual assult
allegation, as there was testimony by the victim of a consensual act
occuring with the defendant within a 72 hour time fram of the alleged
offense; see: T.T. pg. 292 lines 14-17. The

United States Suprem court

has recognized the perasiveeness of D.N.A. evidence in the eyes of the
jury and has stated it is important that it be presented in a reliable
manner, see: McDaniel v. Brown '558 U.S. 120 at* 136 (2009). The
introduction of the D.N.A. to the jury in the form of a "RAPE KIT"
created a substantial likelyhood that the jury would associate the semen
to the rape of the victim, this affected the jury's ability to fairly
consider the defendant's version of events. It must also be emcopassed
within the scope of this argument that the prosecution knew the D.N.A.
was an unreiable source of proof to the sexual assult
444 lines 7-14 and pg.445 lines 7-12.

-14-

see:T.T. pg.

Though Manson

deals with the admission of unreliable state practices

Hanson makes clear reliability is the linchpin to the due process clause
analysis, (432 U.S. 1147); see also : Id. at (127) ( justice Marsall
dissenting).
While the United States Supreme court has not specifically a,dressed
the same set of facts inwhich the petitioner now relies on to constitute
his due process violation the AEDPA does not prohibit a federal court
from finding an applicastion of a principle

unreasonable when it involes

a set of facts different from those of the case inwhich the princiable
was annouced, Pannetti v. Quarterman, 127 S. Ct. at 2858. Here, application
of the court's well established holding in Bratwaite. That the admission,
of unreliable indentification testimony steming from an. unecessarily
suggestive process violates due process. Shows

that the introduction of

the semen in the form of a rape kit, along with unecessarily suggestive
testimony of where the semen was found such as the anual and pubic aera
demonstrate the very Conner stones which swayed the fairness of the trial
proceedings. The states presentation of the case dose not merly raise a
question of fairness, by the prosecution fallacy the constitutional error
is clear. The prosecution stated in closing1-arguments the semen found,
supported the victim’s version of events, see: T.T. pg. 445 lines 14-18,
when in fact the D.N.A. could not and did not substantiate this at all.
The commision of the prosecution fallacy constitutes precisely the type
of impropper state conduct which allows the1'due process check for
reliability.

-15-

The United States Supreme court in Perry supra, stated. " the due process
check comes into play only after the defendant establishes improper
state conduct," see Perry S. Ct. at 726. The suggestive testimony and the
manner inwhich the D.N.A. was presented to the jury along with the fallacy
by the prosecution; gave rise to a substantial likeihood of irreparable
bias against the defendant version of events. This denied the defendant a
fundamentally fair trial. The requirment of due process in safe gaurding
the liberty of citzens against deprivation through, the action of the
state embodies the fundamental conceptions of justice which lies at
the base of our civil and political institutions, see: Herbert v.
Louisana, 272 U.S. 316, 317. In cases where the'only'evidence of the crim
or defendant's guilt is testimony of the victim, the admittance of
unfairly prejudxcal evidence can be especially detrimental to the fairness
of the trial because of the lack of evidence confirming the allegation
would mean that the trial was a close case. The case before this court
illustrates what can go wrong when a trial court failes to gaurd against
the introduction of unreliable prejudical evidence. It is the responability
of the trier of fact to fairly resolve conflicts in testimony to x^eigh
the evidence and draw reasonable inference from basic facts to ultimate
facts. This process was muddied by presenting the semen as evidence and
the fallacy by the procution in closing arguments. Due process prohibits
the state's knowing use of false evidence because such use violates any
concept of order and liberty, Napue v.Illinosis 360 U.S. 264 (1954). A' review
of the record shows the only evidence used to support the element of
sexual conduct was the state's witness's testimony and the defendant's
D.N.A. .

-16-

The defendant's semen was false evidence as it had no probative
value to the element of sexual conduct and therefore was not evidence of
guilt. This evidence was used to support the victim's version of
events as it went to the veracity of the witness's testimony making
the testimony unreliable. Petitioner acerts the prosecution failed to
prove the element of sexual coduct thereby making him innocent of the
charged of rape and the impropper use of the semen as evidence in
violation of his due process rights resulted in his coviction. These
facts demonstrate that is more likely that a juior of reason would have
found the defendant not guilty of rape.

e. conclusion
It is based on the facts presented herein petitioner's states that
this honorable court's guidance is needed. Therefore petitioner humbly
ask that the court accept jurisdiction and grant petitioner's writ
of certiorari.

-17-

